Audit Report




OIG-10-010
Management Letter for Fiscal Year 2009 Audit of the
Community Development Financial Institutions Fund’s Financial
Statements


November 16, 2009




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 16, 2009


            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for Fiscal Year 2009 Audit of the
                                  Community Development Financial Institutions Fund’s
                                  Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Community Development Financial Institutions Fund’s (CDFI) Fiscal
            Year 2009 financial statements. Under a contract monitored by the Office of
            Inspector General, KPMG LLP (KPMG), an independent certified public accounting
            firm, performed an audit of CDFI’s financial statements as of September 30, 2009
            and for the year then ended. The contract required that the audit be performed in
            accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, KPMG issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control over financial
            reporting that was identified during the audit, but was not required to be included
            in the auditors’ reports.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a
            member of your staff may contact Catherine Yi, Manager, Financial Audits, at
            (202) 927-5591.

            Attachment
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




November 10, 2009


Inspector General
U.S. Department of the Treasury
740 15th Street NW
Washington, DC 20220
Director
Community Development Financial Institutions Fund
601 13th Street NW
Washington, DC 20005

Ladies and Gentlemen:

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (the Fund) as of September 30, 2009 and 2008, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “Financial
Statements”) for the year ended September 30, 2009, and have issued our report thereon dated
November 10, 2009. We were not engaged to audit the statements of operations and changes in net
position, and cash flows for the year ended September 30, 2008, and, therefore, we did not express an
opinion on those financial statements. In planning and performing our audits of the Financial Statements of
the Fund, in accordance with auditing standards generally accepted in the United States of America, we
considered the Fund’s internal control over financial reporting (internal control) as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the Financial Statements but not for
the purpose of expressing an opinion on the effectiveness of the Fund’s internal control. Accordingly, we
do not express an opinion on the effectiveness of the Fund’s internal control. We have not considered
internal control since the date of our report.
During our audits we noted a matter involving internal control that is presented for your consideration. The
comment and recommendations, which have been discussed with the appropriate members of the Fund’s
management, are intended to improve internal control or result in other operating efficiencies and are
summarized in the attached Appendix A.
Management’s response to the comment and recommendations is presented in Appendix B. We did not
audit the Fund’s response and, accordingly, we express no opinion on it.

In addition, we identified certain deficiencies in internal control that we consider to be significant
deficiencies, and communicated them in writing to management and those charged with governance in our
Independent Auditors’ Report on Internal Control Over Financial Reporting dated November 10, 2009.
Our audit procedures are designed primarily to enable us to form an opinion on the Financial Statements,
and therefore may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Fund’s organization gained during our work to make comments and
suggestions that we hope will be useful to you.




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
We would be pleased to discuss this comment and the recommendations with you at any time.
This communication is intended solely for the information and use of the Fund’s management, the
Department of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.

Very truly yours,
                                                                                           Appendix A

                        Community Development Financial Institution Fund

                                     Management Letter Comment


Lack of formal control to reconcile disbursements to the general ledger

During our testing of the Community Development Financial Institutions Fund’s (the Fund) expenses,
we noted that the Fund did not have formal policies and procedures in place to reconcile grant
disbursements reported in the CDFI Disbursement System to the general ledger. As a result, the Fund
may not be able to detect and correct misstatements in a timely manner, which would result in
inaccurate financial reporting.

The Government Accountability Office’s Standards of Internal Control states, “Internal control should
generally be designed to assure that ongoing monitoring occurs in the course of normal operations. It is
performed continually and is ingrained in the agency’s operations. It includes regular management and
supervisory activities, comparisons, reconciliations, and other actions people take in performing their
duties.”

The Standards also states, “Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or operating manuals
and may be in paper or electronic form. All documentation and records should be properly managed
and maintained.”

OMB Circular A-123 Management’s Responsibility for Internal Control states that “the agency head
must establish controls that reasonably ensure that obligations and costs are in compliance with
applicable law, funds, property, and other assets are safeguarded against waste, loss, unauthorized use,
or misappropriation, and revenues and expenditures applicable to agency operations are properly
recorded and accounted for to permit the preparation of accounts and reliable financial and statistical
reports . . ..”

Recommendations:

We recommend that management:
1. Develop and implement formal policies and procedures to reconcile authorized grant
   disbursements in the CDFI Disbursement System to the general ledger on a regular periodic basis.
2. Document the reconciliation and subject it to a secondary review.
                                                                                               Appendix B

                         Community Development Financial Institution Fund

                                         Management’s Response



Lack of formal control to reconcile disbursements to the general ledger

Management’s Response:

The CDFI Fund concurs with the finding and recommendations and will implement a monthly
reconciliation process. In addition, upon the auditors’ request, the Fund prepared and provided to the
auditors a year-to-date reconciliation of all grant disbursements as of August 31, 2009.

The CDFI Fund will write formal reconciliation procedures. The procedures will be as follows: The CDFI
Fund will generate a report from the disbursement system at the end of each month and will deliver it to the
Office of Financial Management (OFM). OFM will generate a report from the ORACLE – Discoverer
reporting tool which will display the balances recorded in the general ledger. OFM will then reconcile the
report generated by CDFI Fund’s disbursement system and the balances in the general ledger. After the
reconciliation is done, OFM will forward the reconciliation report to the CDFI Fund for a secondary level
review.

This first monthly reconciliation report will be processed for the month of November 2009.
